21=5926

ORIGINAL

No.
In The

FILED
OCT 0 3 202!

Supreme Court of the United Stales^^™

Rimma Kunik,

Petitioner

v.
New York City Department of Education,
Principal Kaye Houlihan, and
Assistant Principal Dorish Munoz Fuentes,

Respondents

On Petition For Writ Of Certiorari
To The_________
PETITION FOR WRIT OF CERTIORARI

Rimma Kunik, pro se
296 Hubert Humphrey Drive, Apt.AlO
Chestnut Ridge, NY 10977
(845) 623 13 64 (home)

Questions Presented for a Review
1. Quotes in the Order (p.6'4-7; p.9-8-13)issued by the Court of Appeal on 5/13/2021
such as “Kunik did not allege any overt discrimination (emphasis added) based on
her age or religion, much less any facts showing that ‘discriminatory intimidation,
ridicule, and insult’ were ‘sufficiently severe or pervasive’ to alter the conditions of
her employment...” echo other similar argumentation in the presented case.
Is presence of defendants’ recorded slurs directed at plaintiffs indispensable for a
case to be accepted/defined as discriminatory or is the ample evidence of numerous
factually supported discriminatory actions, inexplicably disregarded by courts,
against plaintiffs that “speak louder than words” sufficient and must be accepted as
the undeniable sufficient proof of such discrimination as the above “silence of the
lambs” cannot cancel the defendants’ discriminatory actions?
2. When required to evaluate the workload of a plaintiff in a discrimination case,
courts find it difficult to pronounce a correct determination and often refer to the
fact that they lack “the bright line rule” for it. Does this Court agree that comparing
•

the time the plaintiff used to spend on earning his paycheck before the
unwanted changes were introduced into his/her employment history

•

to the time spent on his/her new assignment, allegedly based on
discriminatory intent or direct discrimination,

will allow to determine, correctly and easily, if the new assignment is truly
‘burdensome” and thus discriminatory?

TABLE OF CONTENTS
1. QUESTIONS
2. The List of the Proceedings [Rule 14-1 (b)(iii)]for
Article 78 of the Civil Practice Law and Rules ...

u

3. The List of the Proceedings for the Age and Religious
Discrimination Case for the Review of Which Writ of
Certiorari is Requested Here [Rule 14*1 (bXiii)]........

m

4. WASN’T THE ACTION IN PETITIONER’S CASE
STARTED TIMELY?
The case (#: L15*cv09512-VSB-SLC) opening date

IV

5. CITATIONS OF AND THE OFFICIAL/UNOFFICIAL
REPORTS [Rule 14-1(d)] ...................................................

vn

6. STATEMENT OF THE BASIS FOR JURISDICTION
IN THE US SUPREME COURT [Rule 14-1(e)]...........

1

7. Judgement and Order To Be Reviewed (Rule 14-l(e)(i)]

2

8. Dates of Additional Orders [as Required by Rulel4*l(e)(ii)]

3

9. The Statutory Provisions Believed to Confer on this Court
Jurisdiction to Review on a Writ Certiorari .........................

3

10. The Constitutional Provisions, etc. Set Out Verbatim
with Appropriate Citations [Rule 14 1(f)]....................

7

11.Concise Statement of the Case with Subtitles [Rule 14-l(g)]

8

12. Argument Amplifying the Reasons relied on
for Allowance of the Writ...................................

31

CONTENTS OF THE APPENDIX
1.

Matter of Kunik v New York City Dept, of Educ. et al.
2015-04025(Index No. 13049/13)
Decision and Order; decided on August 17,2016
Division, Second Department - 4 pages

2.

Matter of Kunik v New York City Dept, of Educ. et al.
Supreme Court of the State of New York, County of Kings
Index#13049/2013; Decision and Order dated September 22, 2016

3.

Matter of Kunik v New York City Dept, of Educ. et al.
Supreme Court of the State of New York, County of Kings
July 19, 2017
Index#13049/2013;
For an Order and Judgement Pursuant to Article 78 Of
the Civil Practice Law and Rules

4.

Kunik v. New York City Department of Education,
Principal Kaye Houlihan, and Assistant Principal
Dorish Munoz Fuentes
U.S.District Court - Southern District of New York(Foley Square)
Case#: i:i5-cv09512-VSB-SLC
Opening the case: a. The first page of the Civil Docket for the Case;
b. VERIFIED COMPLAINT p.l
c. VERIFIED COMPLAINT p.18 signed by
Mindy Kallus on December 2, 2015
d. VERIFIED COMPLAINT p. 19 of signed by
Rimma Kunik on December 2, 2015

5.

Kunik v. New York City Department of Education,
Principal Kaye Houlihan, and Assistant Principal
Dorish Munoz Fuentes
U.S. District Court - Southern District of New York(Foley Square)
Case#: i:i5-cv09512-VSB-SLC
a. Memorandum and Opinion (Doc.34) containing the interlocutory
order dated 9/29/2017, pp.1,25,26
b. Judgement (Doc.74) filed on 1/31/2020

6.

Rimma Kunik v New York City department of Education, Principal
Kaye Houlihan, Assistant Principal Dorish Munoz Fuentes
U.S. Court of Appeals for the Second Circuit
Case# 20-741
a. ORDER * Petition for Panel Rehearing, or, in the alternative, for
Rehearing En Banc, denied; entered on 05/06/2021
b. Amended Summary Order, affirming the judgement
of the district court entered on 05/13/2021 * 2 pages

Page | i

Rimma Kunik, Petitioner
v.

New York City Department of Education, et al., Respondents

On Petition For Writ Of Certiorari
To The United States Court of Appeals
for the Second Circuit

List of the Proceedings for Article 78 of
the Civil Practice Law and Rules
Rule 14 (b)(iii)
1. Supreme Court of the State of New York, County of Kings
Index No.: 13049/13
RIMMA KUNIK against THE NEW YORK CITY DEPARTMENT OF
EDUCATION, KAYE HOULIHAN, PRINCIPAL and DORISH MUNOZ FUENTES,
ASSISTANT PRINCIPAL and RATING SUPERVISOR WORLD LANGUAGES/ESL
DEPARTMENT, FORT HAMILTON HIGH SCHOOL, BROOKLYN, NEW YORK
2. Supreme Court of the State of New York, County of Kings
Index No.: 13049/13; Cal. No. 26/27
Rimma Kunik against NYC. Dept, of Ed., et. al.
Decision of Honorable Judge Ash on January 21, 2015
The petition is dismissed - copy is unavailable.

Page | ii

3. Supreme Court of the State of New York,
Appellate Division* Second Judicial Department
Date May 13, 2015; Index NO.*13049/13;
Docket number 2015-04025
Matter of Kunik v. New York City Department of Education
Case opening
4. Supreme Court of the State of New York,
Appellate Division: Second Judicial Department
Decision and Order August 17, 2016; Docket number 2015-04025
In the Matter of Rimma Kunik, appellant v New York City Department of
Education, et al., respondents
“...the petition and the documents annexed to it establish a cognizable claim
that the respondents’ determination was made in violation of lawful procedure,
or was arbitrary and capricious or an abuse of discretion.”
A unanimous decision of the four judges.
5. Supreme Court of the State of New York, County of Kings
IN THE MATTER OF Rimma Kunik, PETITIONER, against THE NEW YORK
CITY DEPARTMENT OF EDUCATION, ET AL., Respondents
Index#13049/2013;

September 22, 2016

Decision and Order of the Honorable Silvia G. Ash

Page | iii

6. Supreme Court of the State of New York, County of Kings
IN THE MATTER OF Rimma Kunik, PETITIONER, against THE NEW YORK
CITY DEPARTMENT OF EDUCATION, ET AL., Respondents
Index#13049/2013;
Order and Judgement Pursuant to Article 78 Of The Civil Practice Law and Rules
of the Honorable Silvia G. Ash, dated July 13, 2017 and entered in the office of the
clerk of said Court on July 19, 2017

List of the Proceedings for the Age and
Religious Discrimination Case - the One for Which the
Writ of Certiorari is Requested Here
7. U.S.District Court - Southern District of New York(Foley Square)
Case#: I:i5*cv*09512-VSB-SLC
Kunik v. New York City Department of Education, Principal Kaye Houlihan,
and Assistant Principal Dorish Munoz Fuentes
•

Opening of the Case NOTE: Please see the question about the date of commencing this
action after List of Proceedings (on p.iv) as the date of commencing
this action seems to be controversial.

•

Memorandum and Opinion (Doc.34) containing the interlocutory order
dated 9/29/2017

•

pp. 1,25,26

Judgement (Doc. 74) filed on 1/31/2020

Page | iv

8. U.S. Court of Appeals for the Second Circuit
Rimma Kunik v New York City department of Education, Principal
Kaye Houlihan, Assistant Principal Dorish Munoz Fuentes
Case# 20-741
•

Amended Summary Order, affirming the judgement of the district
court entered on 05/13/2021

•

MOTION to extend time , on behalf of Appellant Rimma Kunik filed on
02/03/2021 (petitioner had Covid) - copy unavailable

•

MOTION ORDER, granting Motion to extend time to 03/11/2021 to file
a petition for rehearing or rehearing en banc[l2l] filed by Appellant
Rimma Kunik , to extend time; filed on 02/08/2021 - copy unavailable

•

ORDER - Petition for Panel Rehearing, or, in the alternative, for
Rehearing En Banc, denied; entered on 05/06/2021

WASN’T THE ACTION IN PETITIONER’S CASE COMMENCED TIMELY?
(Refers to p. iii)
According to CPLR 304 Method of Commencing Action or Special Proceeding an
action is commenced by filing a summons with complaint or summons with notice.
U.S. District Court Civil Docket for Case#-l;l5-cv-09512-VSBSLC(APPVl#2p.16*17) describes the following steps recording the steps of opening
the petitioner’s case by Appellant’s attorney Mindy Kallus who worked in Steven
Morelli’s law firm at that time (APPVl#3at 16-17), namely

Page | v

•

Petitioner’s case was filed on Friday, March 4, 2015, but there was a filing
error. Nevertheless, the filing fee of $400.00 was paid on this date (Entry#l)
and

CIVIL COVER SHEET was filed on the same date and modified on

Monday, 12/07/2015 (Entry #2).
•

Entry #3 contains

REQUEST FOR ISSUANCE OF SUMMONS

dated

12/04/2015.
•

CASE OPENING INITIAL ASSIGNMENT NOTICE: The above-entitled
action was assigned to Judge Vernon S. Broderick (Entered on 12/07/2015).

•

Magistrate Judge Henry B. Pitman is so designated (12/07/2015).

•

Electronic SUMMONS

ISSUED AS TO DEFENDANTS

ON 12/07/2015

(Entry #4)
The opening of the case was not smooth, and there were NOTICES TO
ATTORNEY REGARDING ERRORS, but by Monday, December 7, 2015
everything was corrected, the required summons were issued, and two judges were
assigned to the case. Appellant retired on December 9, 2014. It means that her case
was opened within a year of her retirement.
In conclusion, opening the case was done timely and in accordance with the
rule described above. However, on December 18, the court issues “NOTICE TO
ATTORNEY REGARDING DEFICIENT PLEADING. Notice to Attorney Steven
Morelli to RE-File Document N0.1 Complaint,.The filing was deficient for the
following reason(s): the pleading was not signed by attorney who filed it.(pc)

Page | vi

(Entered-12/18/2015). Copied verbatim. A copy of all the described entries from the
Civil Docket for the case is in the Appendix.
The only copy of the Verified Complained in the possession of petitioner
disproves the above notice. It contains all the required signatures, that of the
attorney Mindy Kallus who created it and that of the plaintiff Rimma Kunik. Both
the signatures are dated and were made on December 2, 2015, as also confirmed by
a notary public ■ Lisa Manedestiano (the end of her name on the stamp is hard to
discern and is not quite clear). On top of it, petitioner remembers very well the
occasion when her husband drove her to Garden City for her to sign this document
as she had been sick most of 2015 and did not leave home very often, so this trip
was a distraction from staying at home. Also, she had seen the above public notary
many times as she was a secretary at Mr. Morelli’s office and remembers very well
her first name of Lisa and that her last name was obviously of Italian origin. Copies
of the first and two last pages of the Verified Complaint are in the Appendix, too.
This discovery makes petitioner ask the court to investigate it and explain to her
how the date of Friday, December 18, 2015 came into being when all the papers
claimed to be unsigned until December 18, had actually been signed on December
2, 2015 and thus contained the required signatures when they were submitted and
stamped by the court on December 4, 2015.

Page | vii

CITATIONS OF AND THE OFFICIAL/UNOFFICIAL REPORTS [Rule 14-1(d)]
[l. Matter of Kunik v New York City Dept, of Educ.
142 A.D.3d 616, 37 N.Y.S.3d 22, 2016 WL 4371685, 2016 N.Y. Slip Op. 05812,
N.Y.A.D. 2 Dept., August 17, 2016 (NO. 2015-04025, 13049/13)
No other citations were found.

■

..J

Page 1 of 37

STATEMENT OF THE BASIS FOR JURISDICTION
IN THE US SUPREME COURT [Rule 14-1(e)]

In order for federal question jurisdiction to exist, the cause of action must arise
under federal law. Most claims in the Amended Complaint (Doc.23) and in this
petition arise from the Equal Protection Clause of the United States Constitution
pursuant to 42 U.S.C. Section 1983.
For federal question to exist, the requirements of 28 USC 1331 must also be met.
This statute gives federal courts jurisdiction only to those cases which ”aris[e]
under" federal law. Typically, in order to have federal question jurisdiction, the
plaintiffs complaint must be a well-pleaded one. The plaintiffs initial complaint
does contain references to the federal questions and the federal issues evoked.
Claims For Relief in the Amended Complaint on pp.14-16 refer to the following
Constitutional Clauses pursued in this petition, namely,
•

Retaliation in violation of the Equal Protection Clause of the United States
Constitution pursuant to 42 U.S.C. Section 1983... on the basis of age;

•

Violation of Procedural Due Process Rights in violation of the Due Process
Clause of the 14th Amendment of the United States Constitution pursuant to
42 U.S.C. Sectionl983>

•

Religious discrimination in violation of the Equal Protection Clause of the
14th Amendment of the United States Constitution pursuant to 42 U.S.C.
Section 1983.

Page 2 of 37

Two additional causes of action in the Amended Verified Complaint were claims
of Religious Discrimination in violation of the New York State Human Rights Law,
N.Y.Exec. Law Section290 et. seq. and Religious Discrimination in violation of the
New York City Human Rights Law. If the opening date of the case in the U.S.
District Court ■ Southern District of New York (see p.iv and v) is adjusted,
petitioner requests that these claims brought under the NYSHRL and NYCHRL be
restored.
The Judgement and Order to be Reviewed
The Judgement and Order in the original action sought to be reviewed in this
petition was issued and filed as Doc.74 in Case l-15-cv09512-VSB-SLC on January
31, 2020. This order was subsequently appealed in the US Court of Appeals for the
Second Circuit, but that court denied the review of many issues raised in the
original case by Judge Broderick as the petitioner addressed them in the Reply
Brief, being unaware that issues not raised in the Appeal Brief are not supposed to
be reconsidered and the Appeal Court failed to give the prescribed warnings about
this rule to petitioners proceeding pro se. Opinion and Order of the original action
will allow to look at most evidence on the record and how it was presented and
treated in petitioner’s case. The Order issued by the US Court of Appeals for the
Second Circuit for petitioner’s case #20-741 on May 13, 2021 echoes the Order from
Judge Broderick and mostly uses his arguments on the issues.

Page 3 of 37

Dates of Additional Orders [as Required by Rulel4-l(e)(ii)]
U.S. Court of Appeals for the Second Circuit (Pro Se)
1. MOTION TO EXTEND TIME on behalf of Appellant Rimma Kunik filed on
02/03/2021;
2. MOTION ORDER, granting MOTION TO EXTEND TIME to 03/11/2021, to file
Petition for Rehearing or Rehearing En Banc [Doc.121] filed by Appellant Rimma
Kunik on 02/08/2021;
3. ORDER ■ Petition for Panel Rehearing, and for Rehearing En Banc, denied;
entered on 05/06/202l(Doc.l47).
4. AMENDED SUMMARY ORDER and MANDATE issued on 05/13/2021 (Doc.153)
The Statutory Provisions Believed to Confer on this Court
Jurisdiction to Review on a Writ Certiorari
the Judgement and Order in Question [Rule 14 1(e) (iv)]
The US District Court of Southern District of New York has entered and the
Second Circuit US Court of Appeals has confirmed a decision in conflict with Rule
56 -1- (a)The court shall grant summaryjudgement if the movant shows there is no
genuine dispute as to any material fact and the movant is entitled to judgement as
a matter oflaw.
A. summary judgement.... Presence of genuine dispute on material facts in
petitioner’s case was never addressed by defendants whose responsibility it
was to prove absence of it before moving for the summary judgement as
required by the above Rule, despite numerous instances when plaintiffpetitioner alerted the court/defendants to the presence of consistent genuine

Page 4 of 37

dispute on material facts in the case in the papers filed in this case, such as
the Pursuant to Local Civil Rule 56.1 Responses of Plaintiff Rimma Kunik to
the Statements of Undisputed Material Facts Dated January 18, 2019, of
Defendants New York City Department of Education. Principal Kave
Houlihan and Assistant Principal Dorish Munoz Fuentes (Doc. 69,
Supplement 1, filed 3/18/2019). Plaintiff disputes most of the factual evidence
presented by defendants as incorrect, or misrepresented, or unsupported and
supports her argumentation by reference to the provable evidence and
existing official documents presented in the case. Defendants never
addressed the discrepancies presented by plaintiff and moved for a summary
judgement knowing only too well that the genuine dispute about the
evidence on the record makes their move illegal. Judge Broderick refused to
look at the responses of the non- movant (plaintiff) to questions about the
invalidity of the factual evidence on the record in the case( Doc.69,
Supplement l)

and then granted the summary judgement to the moving

party. It was an extraordinary and very brave act on his part, but also a
violation of the above law because this action made the summary judgement
he had pronounced very questionable.
B. The Court of Appeals was alerted to the issue of presence of genuine dispute
in evidence on the record, too. See Reply Brief-pp.2\ 5*11-22; 22-17*2l;23-25.
A separate Concise Statement of Disputed Facts was filed by appellant, as
required by Rule 56(c)(1)(A) and (c)(2) on April 6, 2021, a month before the

Page 5 of 37

Order denying the Petition for Panel Rehearing and/or for Rehearing En
Banc was issued on May 06,2021
The Court of Appeals ...has departed from the accepted course of judicial
proceedings by not accepting the Concise Statement of Disputed Facts as required
by rule 56(c)(1)(A) and (c)(2) filed by petitioner on 04/07/2021 before issuing the
order denying her Petitions for Panel Rehearing and/or Rehearing En Banc on
05/06/2021.
C. By granting summary judgement in the case where plaintiff challenges the
factual evidence brought into the case by defendants, the US District Court
of Southern District of New York violated petitioner’s right to a jury trial as
guaranteed by the Seventh Amendment to the US Constitution during which
all the genuine dispute on the evidence on the record could be resolved by an
impartial jury because the court involved in this case did not display
sufficient impartiality to be able to do it, considering an extremely
aggressive presence of defendants and their counsel in this case.
D. The party presentation rule is a common law principle that flows out of a
judge’s neutral role in the adversarial system. His/her neutral position must
be obvious to an observer/ the public.
Even if this rule is viewed more as a recommendation than a law, it does serve
as a check on judicial discretion by strongly discouraging judges from entertaining
legal claims and arguments that were not raised by litigants at the first
opportunity. Judge Broderick, having never met petitioner-plaintiff in person and

Page 6 of 37

with no knowledge of her character, spent over 2 full pages in his Judgement and
Order (pp.13'14) on trying to disprove the validity of evidentiary material that
follows from her deposition on April 2018 by claiming it was ’’self- serving” and
brings a wealth of caselaw where such situations did occur. This issue brought
into the discussion was an attempt to bring down petitioner’s character - not the
function of the court and extremely offending to petitioner. This rhetoric also
implies that her answers at the deposition were not genuine and truthful, but
directed at promoting her case. Depositions are taken under a religious oath, and
petitioner is an observing person. For her, violating a religious oath is
unthinkable. Broderick’s unacceptance of petitioner and complete reliance on the
evidence coming from defendants’ counsel is the big reasons for petitioner’s request
for this petition. Petitioner could never imagine that after having lived a life of
integrity and while looking for justice in the US court system she will be further
disparaged by a judge in her case.
Moreover, her case is strong, specifically thanks to provable and factually
supported evidence. She did not need to manipulate the evidence as defendants did.
Everything she stated was and is supported. Judge Broderick’s inexplicable
rhetoric on this issue is an expression of his inability to remain neutral, as required
by law. It also displays lack of control over himself in certain situations. The
question is what motivated him so strongly in the present case. In the context of his
emotional outburst (id. pp.12,13 ), petitioner is requesting a probe into how the
strange date of December 18, 2015 for commencing this case came into being as the

Page 7 of 37

official legal documents in her possession carry the required signatures and are
dated December 4, 2015. The answer to this question will help to determine if the
time bar of December 18, 2015 (pp.iv,v)was applied to her case correctly and legally.
This is not a request to fix a minor irregularity, but a desire to be able to rely on
facts introduced into her case “from outside”.
The Constitutional Provisions, etc.
Set Out Verbatim with Appropriate Citations
in order of appearance in this petition [Rule 14 1(0]
42 U.S. Code § 1983
Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless a declaratory decree was
violated or declaratory relief was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.

Seventh Amendment (Full Text)
"In Suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved, and no fact tried by a jury, shall

Page 8 of 37

be otherwise re-examined in any Court of the United States, than according to the
rules of the common law."
The Seventh Amendment only governs federal civil courts and has no application to
civil courts set up by the states so it is completely applies to petitioner’s request for
review.
CONCISE STATEMENT OF THE CASE (Rule 14 -1 g)

BellAtalntic Corp v.Twomblyt 550 U.S.544(2007), was a decision of
the Supreme Court of the United States which heightened the pleading requirement
for federal civil cases by requiring plaintiffs to include enough facts in their
complaint to make it plausible... that they will be able to prove facts to support
their claims. Following this requirement, petitioner will present as much evidence
on the record as the space allows to show the Court that this evidence is plausible
and thus provides Court with basis for cancelling the summary judgement
presented for a review by this court as not supported with evidence on the record to
the point that not even one denied facts from Responses of Plaintiff. ..to the
Statements of Undisputed Material Facts (doc.69. Supplement l)is addressed in
Opinion and Order(Doc.73) presented by Judge Broderick. Determining whether a
complaint states a plausible claim for relief will, as the Court of Appeals observed,
“... be a context-specific task.
Fort Hamilton High School (FHHS) operates under the Department of
Education (DOE) of the City of New York and belongs to District 20. Its World

Page 9 of 37

Languages Department (department) had a separate section of ESL teachers
during all the years petitioner Kunik was employed there.
Dr. Alice Farkouh was the principal who hired Kunik in 1994 and offered
her tenure in ESL a year later.
Kunik’s next principal Jo-Ann Chester was an ESL teacher and
understood the profession. She was very happy with the graduation rate Kunik’s
students consistently displayed and rated her “satisfactory” on each annual
evaluation. When Jo-Ann Chester became FHHS’s new principal, Dorish Munoz
Fuentes, previously a teacher of Spanish and cooking, became its Assistant
Principal (AP).
In September 2012, Principal Chester retired, and Ms. Kaye Houlihan
became FHHS’s Interim Principal. Ms.Munoz Fuentes remained the AP of the
department until she retired in June 2013.
During their employment, Dr. Farkouh, Mrs. Chester, and Ms. Houlihan
were responsible for personnel decisions at FHHS, including hiring, firing,
evaluating, and disciplining employees during their tenure.
Kunik was employed at FHHS as an ESL teacher from September 1994
until her constructive discharge in December 2014 where she was tenured under
her ESL license from 1995. Her complete certification in ESL is confirmed by her
Certificate of Probation in ESL dated 1997. It is her only Certificate of Probation as
Kunik never pursued complete certification in any other subject. Petitioner was
educated in Russia as a foreign language teacher of English. She received her

Page 10 of 37

master’s degree in Teaching English to Speakers of Other Languages (TESOL) ■
another term for teaching ESL from the Adelphi University.
Assistant Principal’s Retaliatory Activity
In June 2011, petitioner wrote a private letter to her AP Ms. Munoz
Fuentes, asking her to stop her unacceptable tone of communication with petitioner
in the presence of other staff members and students and attributing her demeanor
to unacceptance of Kunik’s “ethnicity”. AP’s inappropriate speech behavior started
before spring 2005, but petitioner tried hard to avoid any confrontation.
In January 2012, petitioner was given her first “unsatisfactory” rating for an
observation by Fuentes which was the first major retaliatory act on her part for the
above letter. Petitioner’s next formal observation took place only on the last day of
classes in June 2012. Petitioner’s annual evaluation remained “Satisfactory”, but
petitioner was denied a per session position in the summer school of 2012. She lost
a chance to increase her pension.
These retaliatory actions can be used to suggest an ongoing practice as there
were many more, including denial of per*session work. These actions continued
until Ms. Fuentes retired in June 2013.
Loss of Complete ESL Program in Violation of
Existing Anti-Discriminatory Laws And Procedures

Petitioner had a full ESL program at the Department in September 2012 as
part of her 17 year uninterrupted tenure under her ESL license. The moment
Principal Chester retired, just within a few days, petitioner lost her full program at

Page 11 of 37

the department of her tenure and, not a native speaker of English©, was partially
excessed from it to teach two English classes in the English Department in violation
of her tenure, high seniority and all the existing anti-discriminatory DOE and NY
State regulations, such as the Agreement Between BOE and UFT (Contract) which
was in power from 2007 to the end of the 2012-2013 schoolyear. Its Art.l7B
describes Excessing Rules for Appointed Teachers (p.103). See also the chapter on
tenure in New York Consolidated Laws. Education Law - EDN par. 6212.Tenure.
Petitioner opposed the discriminatory transfer as she had a very high
seniority in ESL Houlihan was aware of. It was not that she did not want what
could be called “ a less desired” program. It was an illegal transfer to teach the
subject she was not qualified for. ESL and English are two distinct subjects
requiring different licenses and education. It was like asking a guitar teacher to
teach a piano class because he plays the piano. This discriminatory transfer was
secret and never registered with the Personnel Department of District 20 .
Houlihan never offered petitioner to sign the required consent form. Why?
Although this discriminatory transfer - the next act of retaliation for Kunik’s
2011 letter to Fuentes - was created by defendant Fuentes, Houlihan had the
power to override it. ( Houlihan’s Deposition, p.95-13), but refused - in violation of
the anti-discriminatory laws for excessing. Moreover, as Houlihan testified at
deposition, other, younger and not Jewish, teachers with lower seniority, did have
English 7*12 daytime schools license, so it was not an act of necessity and the true
motivation remains unexplained and suspicious. Sending a non- native speaker

Page 12 of 37

without experience to teach native speakers was the decision Ms. Houlihan cannot
defend because she knew the students would be deprived of SAT preparation as
petitioner had never attended SAT curriculum classes, another proof she was
NOT licensed to teach English 7*12 as SAT prep is part of probation in English 7*
12.
Petitioner’s Schedule
During the Fall Semester of 2012-2013
1.

Petitioner was forced to teach a totally new subject to native speakers which

was completely outside her education and practice. This adverse employment
actions forced a plaintiff to use almost all her personal time for grading student
written work and mastering the basics of the subject she had not been licensed to
teach ■ all of it on top of preparing for three periods of her ESL classes
2.

The new schedule increased petitioner’s student population and the number

of hand-written student work petitioner needed to grade on her own time by 30%.
3.

This transfer forced her to work in two departments, creating long

distances for her to cover in 4 minutes between classes. Petitioner’s classrooms
were so far apart because the English Department had classrooms on the third
floor in the middle of the building whereas World Languages Department had the
office below the first floor in the 85 Street module. The school building, located
between 83 and 85 Streets in Bay Ridge, is. huge, so walking from the ESL section
to the English department location meant walking almost a street block plus
stairs/elevator. She had to change classrooms 4 times,Petitioner’s comparators

Page 13 of 37

working in ONE department did not have to cover huge distances as their rooms
were in one cluster.
4.

At that time petitioner hurt her elbow on a huge metal door rushing to the

next class, was diagnosed with a bruised bone and could not write.
5.

Petitioner had to carry a lot of materials because she often had only 4

minutes to get to the next classroom in a different cluster and could not go back for
them to her department. It was painful for her to carry her stuff for the whole year
because of her bruised bone.
6.

Petitioner often could not even get to her Department’s office for lunch.

7.

Created by Fuentes and confirmed by Houlihan, this “walking exercise”, was

obvious retaliation and age discrimination - petitioner was 66. She had described
her medical problems to Houlihan in a letter. Lack of reaction to it points to a
discriminatory intent in the least.
Plaintiff's Schedule During the Spring Semester of 2012-2013
Petitioner was assigned one two period Transitional*3 class (a Regents prep
class), one two period Transitional* 1 class (a Regents prep class), and one period
Regents prep class proper where students had failed ELA(English Language Arts)
Regents test more than twice - another semester of “burdensome” workload. No
other ESL teacher had ever been assigned 5 periods/3 classes of Regents prep
classes unless it was somebody’s individual preference. Ms. Fuentes knew her
business of retaliation.

Page 14 of 37

As a result of the first adverse action, plaintiff was forced to engage in grading a
completely overwhelming amount of student written work and preparing for
classes on her own time (the fact recognized by the principal) which included
Saturdays. It made her violate some of the procedures for Shabbat, a tremendously
painful thing for plaintiff, an observant Jewish woman. However, she could not
allow herself to fail the innocent students who depended on her instruction for
graduating that year. She was never compensated for using so much of her
personal time to sustain her employment.
Plaintiffs recorded complaints about her extremely burdensome schedules
were disregarded and remained unaddressed which led to preventing plaintiff from
observing Shabbats as required by her religion for at least nine months in 2012*
2013.
It was a direct sign of religious discrimination in this case as these schedules could
have been distributed evenly among the ESL teachers of the department. They
were not - a sign of disparate treatment as the most challenging schedules were
assigned to ONE person in the department, who uniquely belonged to the two
protected groups -age and religious. Defendants never explained the logic of
doing it. The two previous principals plaintiff worked with treated plaintiff with
great respect.
disproportionately heavy workload” may be sufficient to establish a materially
adverse employment action where the assigned work is outside of the employee’s
regular duties ( she was a licensed ESL teacher) against the employer’s policy (

Page 15 of 37

requiring a year of probationary service for teaching English 7-12 ) and results in an
increase of work that is not compensated (It forced plaintiff to use an
unprecedented amount of her own personal time to comply with the unnecessary
increase in job responsibilities). See Vega, 801 F.3d at 88 (holding the plaintiff
plausibly alleged a discrimination claim where he was assigned a “disproportionate
workload” that violated the employer’s policy and “materially] increased] D his
responsibilities without additional compensation”.
Feingoldw. New York, 366 F.3d 138, 152-53 (2d Cir. 2004) (holding that a plaintiff
faced an adverse employment action when he was “assigned a heavier docket of
cases as a result of discriminatory intent,” and the employer’s stated reason for the
assigning scheme was contradicted by the employer’s policy).Neither of the courts
that reviewed this case made similar pronouncements about petitioner’s workload
based on available/provable evidence.
Skedula Requirement
Principal Houlihan started to require grades and assignments on Skedula as
part of teachers’ evaluation within5 days of her arrival at FHHS. Because
Houlihan used it in rating, teachers involved in grading student written work*
those from the English department, all refused to do it for lack of time and
compensation and retired at the end on 2012*2013 school year. Petitioner’s
“unsatisfactory” rating included her failure to do it in 2012*2013 though she was
precluded from it by the burdensome schedules created by defendants, and they
were aware of it.

Page 16 of 37

Interestingly, petitioner was also the only teacher rated “unsatisfactory” for
the whole year among the other 25*30 teachers who did not comply with this
Skedula requirement. Why the only??
However, “[E]ven one decision by a school superintendent acting as a final
policy maker, could render his/her decision district policy.” Konits v. Valley Stream
Cent.High Sch.Districti2§Q§Wij2241ffo at*4(E.D.N.Y.Jan.28, 2006). Houlihan’s
policies in her capacity of a supervisor used in evaluations make petitioner’s
Municipal Liability Claim Viable.
Negative Evaluations in 2012-2013 Schoolyear
Plaintiff was the only teacher among the 300 staff members awarded the
“Unsatisfactory rating” for 2012*2013 schoolyear. She got “Developing” for 2013*
2014 school year. Both ratings led to loss of summer school work she needed to
increase her pension. Importantly, during all the time in question , defendants had
the opportunity to commit this crime of discrimination as they were rating officers
for FHHS.
In 2012*2013 schoolyear, observers stayed in her classroom only half the
class, never reaching the benchmark of an official observation. Petitioner challenged
this “Unsatisfactory “ annual 2012*2013 rating in court as Article 78 case against
New York City DOE, and on August 17, 2016, the Supreme Court of NY State,
Appellate Division - Second Department restored the petition and re-calendared
the case for December 14, 2016. The main reasons for the Court’s decision were

Page 17 of 37

that

the rating was made “...in violation of lawful procedure, was arbitrary or

capricious, contained faulty background knowledge or abuse of discretion.”
The unanimous decision of the four judges, never appealed by Defendants,
confirmed that her case was not about how she taught, but about how she was
rated. Plaintiff was fighting cancer at that time in 2016-2017 at Sloan Kettering
Cancer hospital, and the court hearing was postponed.
Meetings with Petitioner, Disciplinary and Other,
Orchestrated By Defendants
To make their “Unsatisfactory” annual rating sound more valid, defendants
fabricated disciplinary problem in petitioner’s clean record to create paper trail for
termination. The invitations to the meetings in 2013 contained the sentence, “You
may bring representation...” - a direct sign they were disciplinary although here
was no evidence petitioner had disciplinary problems. Each meeting was followed
up by a disciplinary letter. Each was enclosed with Kunik’s U-rating file for 20122013.
February 13, 2013 Meeting
The letter does not identify any misconduct as explained below•

Student concerns/complaints - no basis for disciplinary action.

No record (actual complaints, dates, etc.) for these complaints existed. Actually, for
many ESL students, petitioner’s classes were the only chance to graduate. For
example, in March 2013 grade advisor Mrs. Issihiki requested petitioner’s
permission to add two girls to her Transitional-3 class as they had failed Regents
two times. It was the girls’ request to be placed in petitioner’s class as they knew

Page 18 of 37

petitioner's reputation about the high graduation rates in her classes. Both passed
ELA Regents in the summer of 2013. Petitioner was also the only ESL teacher
whose Chinese ESL student got 100 on ELA Regents in 2012 or 2013. Students
concentrated on graduation wanted to be in her classes as other teachers
recommended to them her class as the best road to graduation. One such teacher
was Mrs.Apostolou, petitioner’s comparator.
•

SKEDULA gradebook * no basis for disciplinary action as the requirement
was not legalized by DOE'UFT Contract in 2012*2013.

•

Implementation of Achieve3000 (computer reading program) - the
administration knew the computers were being repaired and unavailable *
another fabrication.

•

Scheduling of Literacy Task - No specific information about its timing was
given to FHHS orally or in writing prior to this meeting. Petitioner had
already completed the required readings by the time of the meeting.

•

Tutoring by National Honor Society students was petitioner’s idea and it was
beneficial for students.

May 8, 2013 Meeting
It was an exemplary meeting. The letter, drafted by Houlihan, according to
AP’s deposition (p.l53>’3*8 ), describes identifiably false statements, such as
“Partial participation by Mrs. Kunik ...” that were not clarified until the time of
petitioner’s deposition in 2018 because Appellant was not allowed to sneak at that

Page 19 of 37

( and all the other) meetings - another feature of the disparate treatment the
petitioner was exposed to.
The problem was the invitation created by Fuentes contained an error.
“Please meet with me in Room 855 to review the lesson plan... for each class
visited...” where“... for each class visited...” means “after visiting the class”. It
turned out the meeting had been planned to take place before the visitation. It
should have specified “the class TO BE VISITED”. Petitioner had no idea she was
in the wrong place (Room 858).She followed the directions as they were given
there was no violation of any rule on the part of petitioner . When Fuentes entered
the room full of students and teachers, the first thing she did was to yell, as if she
were on a ship and wanted everyone to hear her command, in the presence of the
staff, students, and Houlihan, “ Ms. Kunik, why didn’t you come to Room 855
her regular manner of speech with petitioner. Do we really need “slurs”?
During this disciplinary meeting which took place in Houlihan’s office, she
was so excited, that she screamed loudly at Appellant - another proof of disparate
and thus discriminatory treatment of petitioner ■ scaring to death the

UFT

representative. AP Fuentes and everyone else were silent. The principal ranted in
such a high voice that petitioner didn’t even dare to clarify the situation. She did
not use slurs.
June 26, 2013 Meeting
The disciplinary meeting was dedicated to Appellant’s non-compliance (created by

Page 20 of 37

her burdensome schedules) with Houlihan’s unauthorized Skedula requirement,
not her contractual obligation anyway.
Negative written evaluations or reprimands are adverse employment actions if they
affect an employee’s terms and conditions of employment, such as promotion, wages,
or termination. Farina v. BranfordBd. ofEduc., 458 F. App’x 13, 17 (2d Cir. 2011)
.Petitioner’s were included with her Unsatisfactory annual rating.
There were two more exceptionally disturbing meetings petitioner had with
Defendants in 2013. They were not included in petitioner’s “U”*rating file. Neither
were they mentioned anywhere by defendants’ counsel who just did not mention
what he could not manipulate.
April 15, 2013
In 2012*2013 schoolyear, the administration included a professional topic
into crowded agendas of department meetings. It made meetings so intense that
it was impossible to concentrate on issues or clarify anything. The 46 minute
department meeting for the World Languages Department on April 15,2013
contained 36 items on its agenda and one professional topic directly related to the
new evaluation system coming in September 2013. It was addressed at the very end
of the meeting. Plaintiff did not know that the bell was going to ring any minute
when she asked a question about the professional topic above. Houlihan stepped in
close to the end of the meeting when Peitioner was asking the question and trying
to understand the answer that really contained a new element to be used. This
explanation is important because Houlihan accused petitioner of asking questions

Page 21 of 37

at the very end of meetings ( Defendants themselves scheduled professional topics
to be addressed at the end of meetings!) with an INTENTION of disrupting the
meetings (What a sick assumption!). It is clear the meeting was not planned
appropriately. Fuentes was exceptionally rude; she interrupted Kunik and
dedicated her attention to Houlihan. Petitioner was leaving the classroom when
she was stopped by Houlihan’s loud piercing voice in which Houlihan addressed
petitioner. The new teachers and students were coming into the room. Houlihan
actually told petitioner, screaming at her and literally mimicking her, that she
had asked the question at the last moment in order to interrupt the meeting . She
used exceptionally unpleasant words that drove petitioner to tears she was
fighting to keep back as there were students and teachers everywhere. It was such
a harassing situation - shameful and sick! In her deposition(p.98-3-13), Houlihan
said she herself had never observed petitioner’s alleged disruptive behavior. It
was related to her by AP Fuentes - complete slander. Do we need slurs? It is
important to mention that petitioner never screamed at ANYONE and was very
upset over this humiliating, clearly anti-Semitic outburst of emotions dictated by
Houlihan’s obvious hatred for petitioner. Like all anti-Semitic actions and
rhetoric, they were unfounded. After this incident, petitioner wrote a letter to
Houlihan dated April 16, 2013 stating she was not coming to meetings presided
over by AP Munoz because of her insulting demeanor. The letter of April 16, 2012
was a letter from an employee reporting abusive behavior of the AP to her
immediate supervisor. According to Regulation of Chancellor #A-830 Policy and

Page 22 of 37

Law (p.l of 3) issued on 9/17/2010 and provided to all the teachers, “Supervisors
are required to maintain an environment free of unlawful discrimination or
discriminatory harassment. Supervisors are also required to report instances of
any oral or written complaints of such discrimination to the Department’s Office of
Equal Opportunity(“OEO”). Houlihan did not do anything like that. She scheduled
a meeting for May 9, 2013 with AP Fuentes and petitioner at which she herself
screamed AGAIN(!) and completely took the side of AP. Conscious failure of
Houlihan to address Kunik’s written complaint about her AP’s harassment and
resorting to the same abusive speech behavior shows that Houlihan, too, had an
intent to discriminate against petitioner based on her age and religion. See Bohen
v.CityofEast Chicago^Ind^lQQY .2& at 1187* describing similar behavior of the
supervisor in the sex discrimination case.
Those were actions that “spoke louder than words”. Why should absence of
accompanying slurs prevent the Court from qualifying the incident as
discriminatory? It was an act of hatred and harassment. Appropriate speech
behavior is part of code for all administrators. With petitioner being the only
person belonging to two protected groups at her department, it could very well have
been a display of very active anti-Semitic emotions the principal lived with,
described in petitioner’s Amended Complaint as “deep-seated”. It is quite possible
that harassing and offending people without using slurs, etc. is ’’deep-seated”
discrimination of any kind. Petitioner suggests refering to it as “mute
discrimination”. When a defendant gets away with hatred, someone on the other

Page 23 of 37

side of the table suffers a trauma. No one should get away with hatred/harassment
if we, as a country, want to “pursue happiness”. Such offences should be addressed
timely to prevent similar situations. Unaddressed, this behavior will continue - see
the incidents dated April 15and May 9, 2013.
Here is another example when lack of slurs is meaningless because the action
is conspicuous. Two Brooklyn College athletes kneeled during the recital of the
Israeli national anthem at a game against the Yeshiva University men’s volleyball
team on February 23, 2020 in the Max Stern Athletic Center. It was an antiSemitic action undoubtedly directed against Israel’s statehood. No anti-Semitic
slurs, but obvious anti-Semitism. This is to say that lack of slurs in the context of
provable discriminatory harassment is meaningless. What matters is actions.
Hopefully, petitioner will get a chance to argue this position in more detail.
There were other instances of public humiliation petitioner was exposed to
by Houlihan’s actions. At the conference with Houlihan and Ms. Marquez, the new
AP at the department, on September 10, 2014, Ms. Marquez engaged in mimicking
Appellant and was not stopped by Houlihan. This non-stop humiliation affected
petitioner tremendously, and she was hospitalized an hour later with a stroke-like
episode. Another sick example was the Post Observation Conference on June
10,2014.
No Individualized Professional Development
Plan Created for Appellant
DOE required that supervisors provide “Unrated teachers with an
individualized professional development plan. Defendants consistently rated

Page 24 of 37

petitioner’s TEACHING “unsatisfactory” in 2012*2013 and numerously offered her
professional development in SETTING UP A GRADE BOOK on Skedula - not even
a responsibility legalized by DOE.
Absence of recorded targeted structured professional help

shows

Defendants again violated DOE regulations and petitioner’s procedural due
process rights.
Petitioner’s Evaluations in 2013-2014 Schoolyear
This section shows the undeniable intention of Defendant Houlihan to give
petitioner the lowest possible ratings. She knew the ratings in 2013-2014 had to
support the U-rating for 2012*2013 and thus prove Kunik was a “bad,bad”
teacher. It would have given her a possibility to cover obvious age and religious
discrimination against petitioner. Consequently, Houlihan concentrated on
giving petitioner the lowest possible ratings in 2013*2014 schoolyear which could
confirmed there had been no discriminatory intent in Defendants’ evaluations in
2012*2013. This is already an explicit motive for discrimination and retaliation.
However, Houlihan disregarded the fact that Appellant was a very dedicated
and experienced teacher and although her overall evaluation for 2013*2014 was
“Developing”, she missed “Effective” by 3 points only. What happened was that her
students’ performance on tests was rated 15 and 16 (out of 20 and 20) - which
rendered them “Effective”. So the teacher is allegedly “bad”, but the students have
all the skills to test “Effective”. It is important to mention that petitioner taught
Beginners and Pre-Transitional classes in 2013 - 2014. It means they got their

Page 25 of 37

proficiency in English from petitioner because prior to it, Beginners did not have
any and Pre-Transitional classes were the next stage after Intermediate learners,
and they always have very low reading comprehension and no fluency in writing. It
is logical to conclude that their proficiency was developed thanks to the consistent
efforts and direction provided by petitioner .
The new rating system introduced in 2013*2014 schoolyear contained a
different menu of ratings, namely “Highly Effective” ( worth 4 points ), “Effective”
(3 points), “Developing”(2 points) and “Ineffective” (worth 1 point). The fifth option
was to use “N/A” (0 points) that meant these specific criteria were not rated for
lack of evidence.
A complete chart of all the evaluations received by Appellant is below. The
chart shows the number of N/A, “Ineffective, Developing , and Effective ratings in
the reports for each observation.
Chart of the 2013*2014 Evaluations
Evaluation Observ.
s for the
#1
Six
10/18/2
Observatio
013
ns in 20132014
N/A
(not 3
available)
Ineffective
0
Developing 11
Effective
8

Observ.# Observ.
2
#3
11/22/20 Origins
13
1
1/16/20
14
8
3

Observ.# Observ.
4
#5
02/10/20 5/8/201
14
4

Observ.
#6
6/04/20
14

5

7

8

Observ.
#3
Correct
ed on
6/20/20
14
9

4
8
2

3
12
2

4
8
3

2
8
4

4
9
0

5
12
2

Houlihan’s rating was ruthless. It confirms that Kunik’s case is not about
how she taught, but about how she was rated. The chart above shows how

Page 26 of 37

petitioner’s scores got consistently lower and lower with each evaluation in 20132014 — Houlihan was intent on not allowing Kunik to become “Efficient”, which
would have made it hard to explain “Unsatisfactory “ for 2012-2013.
Special attention should be paid to Observation#3 where the original report
was issued on 1/16/2014 and the corrected five months later! on 6/20/2014.
Petitioner challenged all Principal’s ruthless ratings in APPR Resolution
Assistance Requests (RAR). This is the observation which contained ratings that
were qualified as “unsupported” by DOE/UFT Labor Relations Committee, a joint
committee that looked at the complaints from the teachers who challenged their
ratings.
From the multitude of the APPRs, the Committee was allowed to choose only
50, according to Houlihan’s testimony (p.107-8-15), to be considered and analyzed
for New York City. This limited number covering the whole big City of New York
shows that only completely inappropriate evaluations could get into such a limited
pool. Petitioner’s was one of them. Obviously, petitioner’s selected evaluation
contained clear evidence of impropriety.
Chart of Evaluations for Observation #3,
Original and after Houlihan’s Changes, Compared*
Evaluations
for
Observation #3
1/16/2014
N/A (not available)
Ineffective
Developing
Effective

The First Report
January 23, 2014
3
5
12
2

The Report after
the AAPR Changes
June 20, 2014
9
4
9
0

The difference

6 more
1 less
3 less
Wiped out
altogether

Page 27 of 37

The APPR Resolution Assistance Request for the change of the ratings was
filed on March 12, 2014. Houlihan received it for adjustment on 3/18/14. She was
ordered to change or support her ratings.
Petitioner knew that this observation was chosen for adjustment, but was
not informed by Houlihan this process was underway in March and learned about
it only on June 20. 2014 ■ three months later and right before the end of the school
year. Withholding this information from petitioner for three months was a
deliberate action dictated by the discriminatory intent to prevent petitioner from
taking action. Houlihan changed all the ratings identified as unsupported to N/A
(worth zero points) which brought the final rating even more down ( see the Chart).
Again, petitioner lost the chance to teach summer school.
Fight Over the Artifacts as Strong
Evidence of Discrimination
The new evaluation system introduced in 2013-2014 allowed the observer to
use “N/A” notation, equal to zero, for something that was not observed in the
classroom. Teachers were allowed to produce evidence, called “artifact”, of the
specific element being/having been present in the teacher’s practice in general.
Accepted artifacts could not change the individual rating of N/A, but could add up to
5% to the total original score. For example, for 80 as the raw score, artifacts could
add 4 points (5%) to the ‘80” and make it 84.
Appellant had been on sick leave for over 30 days before returning to school on
April 10. She absolutely had artifacts ready in the form suggested by UFT. She
failed to submit them because the Interim AP was not in her office the whole day

Page 28 of 37

and left earlier on April 11, 2014, the deadline to submit artifacts and also the last
day before the spring vacation. Petitioner taught late and rushed to Principal’s
office, but everyone was gone except one woman who was there just to answer the
phone. She explained she did not take any papers from anyone. The school was on
Easter break.
On April 23, 2014, petitioner took her artifacts to Principal’s office, gave them
to her secretary Barbara Golia and asked her to give them to Houlihan with
petitioner’s request to accept them OR return the artifacts IMMEDIATELY if she
does not. Petitioner went to see the secretary each day for over a week, sometimes
twice a day, but according to Ms. Golia, the principal knew about petitioner’s folder
with artifacts, but had no message for her. It was easy to say “Yes” or “No”, so
Kunik

assumed that her artifacts had been accepted. After May 3, she stopped

going to defendant’s office to inquire about her artifacts being sure she would have
been informed if the artifacts had not been accepted.
Petitioner underestimated the limits of what was acceptable for Houlihan.
It was only on June 26, 2014 ( 63davs after petitioner

had brought her artifacts to

Principal’s secretary) that petitioner learned that Houlihan had not accepted her
artifacts, but would have accepted them on April 23, 2014 if petitioner had asked
her AP to officially request that she do it. However, this option was intentionally
kept from petitioner and the AP until June 26, 2014. Nothing can point to the
discriminatory intent more clearly than premeditated withholding of the
information so important to the person who is the object of this discrimination.

Page 29 of 37

This is already not circumstantial, but direct evidence of criminal cover-up
discrimination and harassment.
It was Principal’s direct responsibility to keep all the FHHS teachers informed
about the available options in the new evaluation system introduced in 2013*2014,
according to numerous mailings from DOE.

Houlihan’s criminal “trick” was in

direct and obvious violation of Houlihan’s own responsibilities, DOE regulations,
petitioner’s rights, laws of integrity and an obvious violation of due process.
Unexpectedly, in September 2014 (at the time of the Jewish High Holiday and
after all the evaluations for 2013*2014 had been completed, recorded, and
submitted), Defendant sent petitioner an e-mail saying she would accept her
artifacts. It happened shortly after Tom Bisceglio, a UFT representative, had
spoken with her in private about the way she was rating Kunik and openly
commented on it in front of people by saying Houlihan ’’rated Kunik differently from
others” - a direct statement confirming disparate treatment of petitioner and
ongoing discrimination. He spoke as an independent juror at a trial Kunik never got
in violation of the guarantees in Amendment VII (p.8). No doubt, Houlihan decided
to create a situation that could help her look better.
When asked by petitioner for more time because of her religious observances,
Houlihan denied it although administrators cannot engage in judging if the request
is legitimate. If there is no burden to the others, they must grant it. There was
none, but the request was denied - direct evidence of religious bias! No slurs!

Page 30 of 37

Petitioner did submit her artifacts. Here is the end of the story. According
to Houlihan, the year of 2013*2014 was closed and no changes could be made. It is
recorded in Houlihan’s e*mails in early December 2014.
While preparing this brief, petitioner came across the following statements
in Houlihan’s deposition( p.127)*
-

I don’t recall the specific move to submit these ratings (i.e. artifacts)
in October.
When you say you don’t recall a specific move—just?
Going to Labor Relations, contacting Advance. Again, I could go back
to the Fall of 2014 and investigate that.
What would you look for?
I would look for an e*mail that would be a request saying, you know,
please add and recalculate the overall rating for Ms. Kunik.
The e-mail would be to the DOE ?
Somebody in the DOE...

This exchange with petitioner’s attorney testifies to the fact that
Houlihan had never submitted petitioner’s artifacts to anyone altogether. From
October 1, 2014 till December 5, 2014 - for two months Houlihan was lying to
petitioner, sending her messages which described her communication with those
responsible for the change, obviously having fun that she could fool Plaintiff and
get away with it.

Page 31 of 37

On December 9, 2014 petitioner retired. It was absolutely constructive discharge
as after the September 10, 2014 incident, she was scared of becoming permanently
disabled because of extreme stress she was purposefully exposed, the goal being to
force her into retirement.
GRANTING REVIEW ON CERTIORARI TO THIS CASE
WILL ALLOW TO
PROMOTE “JUSTICE FOR ALL”[Rule 14 -1(h)]
The review of the petitioner’s age and religious discrimination case will help
resolve such problems as unequal application of law in her and other related cases,
containing very similar employment circumstances.
•

Vega v. Hempstead Union Free School District 80IF. 3d 72(2d Cir. (2015)
where the court says that his discriminatory actions “...taken
together...plausibly paint a mosaic of retaliation and an intent to punish
Vega for complaining of discrimination” His appeal court “vacated and
remanded...”

•

Zoulas “ ...has pleaded a materially adverse action with respect to her overall
rating of Developing for the 2015-2016...and ...the 2017-2018 academic...”
years. See Zoulas v, N.Y.C. Dep’t ofEduc. 400F. Supp. 3d 25( S.D.N.Y.2019).

•

In the United States District Court, S.D.N.Y Shapiro v. New York City
Department Education 561 F. Supp. 2d 413 (S.D.N.Y. 2008) several of the
plaintiffs allege ...U ratings; adverse transfer ... and constructive discharge.
With respect to the U ratings, those plaintiffs who received end*of*year U
ratings have created a genuine issue of material fact as to whether such a

Page 32 of 37

rating constitutes an adverse employment action. Plaintiffs have adduced
evidence that the consequences of a U rating include- (a) being removed from
"per session" (i.e. extracurricular) paid positions; (b) being barred from
applying for per session positions for five years; (c) inability to work in
summer school; (d) lost income...; (e) reduced pension benefits; (f) inability to
transfer within the school district? and (g) damaged professional reputations
and stymied careers.(emphasis added) All of it is present in petitioner’s case
but petitioner’s courts did not evaluate or accept any of this evidence as
proving discrimination. Why?
•

In a totally different working environment, plaintiff Pozo complained she was
assigned to clean a huge number of toilets as opposed to cleaning bedrooms
as her comparator Halina did. However, after working hours, Pozo could use
her personal time any way she wished whereas in petitioner’s case, the
“extremely burdensome” illegal assignment for the fall semester was
successfully followed by the next “extremely burdensome” assignment for the
spring semester - all created by defendants, so Kunik used most of her
personal time each day, including weekends, on grading a huge number of
student work to the point that she had no more than 5 hours for sleep daily
and was unable to comply with her religious observances on Shabbats for a
period of 9 months. In this situation, it was irrelevant if any slurs were
pronounced as she was literally “enslaved” by her illegal, discriminatory
schedules created for her by defendants. She did complain in writing to

Page 33 of 37

defendants about the lack of time and otherwise, but it changed nothing in
her workload created on purpose. Here again actions “speak louder than
words” and testify to both age and religious discrimination and
discriminatory harassment claimed by petitioner.
“The time factor” brought into this situation, would have revealed that Pozo (Pozo
V J J Hotel Company, 06 Civ. 2004 (RCC) (AJP) (S.D.N.Y. May. 10, 2007) had
obvious advantages over petitioner as all her personal time was hers to use any
way she wanted to, whereas petitioner provably brought home a huge number of
papers to grade that took a significant bite out of her personal time, was never
compensated for this work, and freedom to use this time for her religious
observances was taken away from her. This “time factor” - an objective measurable
criterion, can be that very “bright line” that courts look for in search for fair
decisions. While Pozo’s work stopped when she left its location, Kunik’s travelled
with her and deprived her even of sufficient sleep.
Petitioner’s workload was never evaluated by Broderick or the appeal court.
The guidance in addressing “slurs” and “mute discrimination” as well as the time
factor, will help discrimination cases to be resolved easier, faster, and with more
confidence the decision is correct and is supported by the evidence.
In 2020 our country lost a tremendous number of elderly people to COVTD *
19. This Court can honor their memory in 2021 by taking on some cases of age
discrimination which often lead, through stress they generate in the affected

Page 34 of 37

people, to very serious diseases such as cancer, stroke or heart attacks in elderly
people who just want to remain active and continue working.
Petitioner had to go through 4 surgeries, three of them for cancer, and other
invasive treatments for the problems she had developed as a result of the stress she
had been exposed to during 2012-2014 - only because her choice was to continue
working at 66 was opposed by Houlihan, Fuentes being just an active anti-Semite
with active hatred in her heart.
Although we cannot do anything for those who are no longer with us, we, as a
country, can still help those who are alive and are fighting age and other types of
discrimination - religious in this case.
As the population of US grows older, the number of age discrimination cases
will grow, too, especially among those elderly people who happen to be in good
health and are able to continue working. Today these are mostly Americans for
whom it was very hard to save for retirement when they were younger as most of
them were engaged in raising children. More and more elderly without
significant savings can support themselves and even save some money more
consistently in their advanced years, should they continue employment. It will
benefit the country financially, too, as working people stay healthier longer.
The problem of age discrimination and employment of the elderly who want
and absolutely are able to continue employment has become overwhelming
in USA and so obvious and painful today that it is raised in works of art, such as
the movie “Nomadland” in which Chloe Zhao adapts Jessica Bruder’s book that

1
Page 35 of 37

bluntly assesses the economic reality that forced a significant amount of the
American population into what she called “houselessness” when those over 40
failed to obtain or keep employment, very often as a result of age discrimination
they are unable to fight, also because of very high costs of legal representation.
While age-based harassment doesn’t receive the same attention as age
discrimination, it is very troubling. It is also, apparently, a growing problem. The
question is how do we, as a nation, deal with it? Most legal cases make proving it so
hard that perpetrators mostly get away with it as happened in the case to be
presented here. Why are healthy people in advanced age in USA not allowed to
engage in quality work they are hired to do 'without discrimination and
harassment? Interestingly, people of similar advanced age who own businesses
and continue running them do so quite successfully - another facts that contradicts
the negative stereotypes that cause age and other painful types of discrimination.
The petitioner who presents her case pro se is 75. Her discrimination started
when she was 66. It has taken 9 years and all her savings out of her life precisely
because many evidentiary details are not interpreted correctly in discrimination
cases. Taking on petitioner’s case this year and looking at it specifically from the
prospective of discriminatory harassment, will help resolve it correctly, but also
prevent some of these painful discrimination cases, especially involving age, if
employers realize that they may not always prevail in cases of age discrimination.
American courts must protect the US elderly from harassment at work. Also, it will

Page 36 of 37

honor the memory of those who lost their cases or never challenged the situation
because of lack of easy correct guidance in certain aspects of this legal area.
The decisions of all the lower and appeal courts in petitioner’s case are
inexplicable as the presented evidence echoes similar cases in which the decisions
were different, such as Vega, Shapiro, Zoulas and many others. This is not to say
that this court has not done a tremendous job working on correct interpretation of
laws and evidence. We, the elderly, need and expect equal protection under the law,
as guaranteed by Fourteenth Amendment so that those who want to continue
working can do so in an environment free of discrimination and are allowed to
engage in quality work without unnecessary impact of painful discrimination.
Judge Broderick whose decision is brought for a review now and whose decision was
appealed in the Second Circuit did agree that petitioner had proved her age
discrimination case, but still gave in to the pressure of tremendously determined
defendants’ lawyers. When defendants moved for a summary judgement her case
was never qualified for, they filed 5 or more major documents. They could afford to
do it because their salaries are paid by taxpayers, including petitioner. However,
petitioner could not ask her very competent lawyer to respond to each - she could
not sustain this “competition”. It would be great relief to petitioner to know her
case was accepted for a review, especially because it will hopefully put an end to
defendants’ unprecedented misrepresentation of what had actually happened. We,
the discriminated, are mostly honest and hard-working people , and we need legal
protection.

Page 37 of 37

A review of petitioner’s age (and religious) discrimination case will also help
resolve the problem of unequal application of law in discrimination cases by using
“the time factor” more efficiently. It will address the balance between “slurs” and
actions as evidence for making correct decisions in discrimination cases. The
guidance in addressing “slurs” will help discrimination cases be resolved easier,
faster, and with more confidence the decision is correct and is supported by the
evidence.
Gratefully and respectfully,

Rimma Kuni
October 3, 2021

